State of New Jersey

PHILIP D. MURPHY

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW

Governor

SHEILA Y. OLIVER

25 MARKET STREET

Lt. Governor

PO Box 080

TRENTON, NJ 08625-0080

GURBIR S. GREWAL
Attorney General

MICHELLE L. MILLER
Director

March 19, 2021
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Arlane James, et al. v. Noah Bartelt, No. 20-997

Dear Mr. Harris:
Respondent, Noah Bartelt, writes to request a 30-day extension to file a response to the
petition for certiorari in the above-captioned matter. See Sup. Ct. R. 30.4. The Petition was filed
on January 4, 2021. Respondent filed a timely waiver on February 17, 2021. On March 12, 2021,
this Court requested a response to the Petition. The response to the Petition is currently due on or
before April 12, 2021. An extension of time of 30 days to file a response will create a new due
date of May 12, 2021. Petitioner has consented to this request.
This is Respondent’s first request for an extension, which is necessary to ensure that
Respondents can review and provide a thorough and appropriate response to the Petition because
of the assigned attorneys’ respective obligations to manage heavy caseloads. Among other things,
lead attorney for Respondent, Jeremy Feigenbaum, has a merits brief due to this Court on March
31, 2021, and oral argument before this Court on April 28, 2021, in PennEast Pipeline Co. v. New
Jersey, No. 19-1039.
We thank you in advance for your consideration of this request.
Respectfully submitted,

cc: Counsel of Record

Jeremy M. Feigenbaum
State Solicitor, State of New Jersey

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-2690• FAX: (609)
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

